2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 20MICHAEL SANG HAN,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of November, 2020, send
out from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by third-party commercial carrier for delivery within 3
calendar days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
Wesline N. Manuelpillai
COVINGTON & BURLING LLP
The New York Times Bldg.
620 Eighth Avenue
New York, NY 10018-1405

Kevin F. King
Counsel of Record
Daniel Bernick
Ali Remick
COVINGTON & BURLING LLP
850 Tenth Street, NW
Washington, DC 20001
kking@cov.com
(202) 662-6000
Counsel for Petitioner
Michael Sang Han

Subscribed and sworn to before me this 13th day of November, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

NERAL NOTARY-.State .of Nebr.aska
RENEE J, GOSS

My Comm. Exp. September 5, 2023

Affiant

40338

SERVICE LIST
Jeffrey Wall
Acting Solicitor General of the United States
U.S. Department of Justice
Room 5616
950 Pennsylvania Avenue, N.W.
Washington, DC 20530-0001
(202) 514-2217
supremectbriefs@usdoj.gov

